HHS/OIG Audit:"Review of Graduate Medical Education And Indirect Medical Education At Saint Elizabeth's Medical center For Fiscal Year Ending September 1999,"(A-01-02-00505)
Department of Health
and Human Services
"Review of Graduate Medical Education And Indirect Medical Education At Saint Elizabeth's Medical Center For Fiscal
Year Ending September 30, 1999," (A-01-02-00505)
May 17, 2002
Complete
Text of Report is available in PDF format (560 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine the accuracy of resident Full-Time Equivalents (FTE) counts used by the
Saint Elizabeths Medical Center (SEMC) during Fiscal Year (FY) 1999 to calculate Graduate Medical Education (GME) and
Indirect Medical education (IME) payments.  We determined that SEMC overstated its calculations for IME and GME by
2.84 and .47 FTEs, respectively.  These overstatements occurred because SEMC claimed reimbursement for residents:
1) who spent time in unallowable research activities; 2) who exceeded their initial residency period yet were counted as
if they were within their initial residency period; 3) whose time was not supported with adequate documentation; 4) who
rotated to non-hospital settings; and 5) who were misclassified as primary care residents.  We also identified a cost
reporting error involving the Per Resident Amounts update factor.  As a result of these errors, the hospital overclaimed
GME and IME reimbursement by $121,395 on its FY 1999 Medicare cost report.